No. 20-1678

In the Supreme Court of the United States
DANIEL Z. CROWE; LAWRENCE K. PETERSON;
AND OREGON CIVIL LIBERTIES ATTORNEYS,
an Oregon nonprofit corporation,

Petitioners,
v.
OREGON STATE BAR, A PUBLIC CORPORATION, ET AL.,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amicus Curiae
of the Liberty Justice Center contains 4,038 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 1, 2021
/s/ Daniel R. Suhr
Daniel R. Suhr
Counsel of Record
LIBERTY JUSTICE CENTER
208 LaSalle St., Ste. 1690
Chicago, IL 60604
(312) 637-2280
dsuhr@libertyjusticecenter.org

